  FOLLOW-UP AUDIT ON THE
    IMPLEMENTATION OF
COMMERCIAL VEHICLE SAFETY
 REQUIREMENTS AT THE U.S.-
      MEXICO BORDER
Federal Motor Carrier Safety Administration
      Report Number: MH-2003-041
        Date Issued: May 16, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Follow-up Audit on the Implementation            Date:    May 16, 2003
           of Commercial Vehicle Safety Requirements at the
           U.S. – Mexico Border
           MH-2003-041
  From:    Alexis M. Stefani                                     Reply to
                                                                 Attn. of:   JA-40
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    Federal Motor Carrier Safety Administrator

           INTRODUCTION
           With the signing of the North American Free Trade Agreement (NAFTA) in
           December 1992, the United States and Mexico consented to cross-border trucking
           throughout both countries by January 1, 2000. However, in December 1995, the
           United States indefinitely delayed implementation of NAFTA cross-border
           provisions for safety reasons.

           The Fiscal Year (FY) 2002 Transportation and Related Agencies Appropriations
           Act (the Act) provided funds to the Federal Motor Carrier Safety Administration
           (FMCSA) to implement NAFTA provisions and required that certain safety
           requirements and preconditions at the U.S.-Mexico border be met. The Act
           prohibited FMCSA from using funds to review or process applications of
           Mexican-domiciled motor carriers (Mexican motor carriers) seeking to operate
           throughout the United States (long-haul) until the Act’s safety requirements were
           satisfied.

           The Act also directed the Office of Inspector General (OIG) to conduct
           comprehensive reviews of border operations to verify whether eight safety
           requirements were in place. On June 25, 2002, we reported that FMCSA had
           made substantial progress toward meeting the Act’s requirements to hire and train
           inspectors, establish inspection facilities, and develop safety processes and
           procedures for Mexican long-haul motor carriers. FMCSA proposed to complete
           within 60 days those actions that were in process and planned, except the hiring
                                                                                                                  2


and training of safety investigators and training supervisors, which FMCSA
planned to complete by November 2002.

On November 20, 2002, the Secretary certified that authorizing Mexican carrier
operations throughout the United States does not pose an unacceptable safety risk.
On November 27, 2002, the President lifted the moratorium on granting operating
authority to Mexican motor carriers. The President further authorized the
Department of Transportation to act on applications Mexican motor carriers
submitted to obtain operating authority to provide scheduled cross-border bus and
truck services throughout the United States.


OBJECTIVES
Our audit objectives respond to the Act’s Section 350 provisions, which require
the OIG to conduct a follow-up audit to verify that FMCSA has hired and trained
inspectors, established inspection facilities, and developed safety processes and
procedures for Mexican long-haul carriers. We also planned to determine how
effectively resources were being used and whether safety procedures were
implemented. However, because the border was not open to long-haul traffic, we
were unable to evaluate the efficient use of resources and the implementation of
safety procedures including the hours of service policy. Details of our objectives,
scope, methodology, and prior audit coverage are in Exhibit A.


RESULTS IN BRIEF
FMCSA has substantially completed the actions necessary to meet the Act’s
requirements to hire and train inspectors, to establish inspection facilities, and to
develop safety processes and procedures for Mexican long-haul motor carriers.
Two remaining items—3 personnel vacancies and an agreement to detain
commercial vehicles at the smallest crossing—will not affect FMCSA’s ability to
satisfy the Act’s requirements. Also, State enforcement personnel need to be able
to place Mexican carriers operating without authority out of service. Eighteen
States, within the continental United States, have not yet adopted FMCSA’s rule
authorizing their enforcement personnel to take action when they encounter a
vehicle operating without authority. The primary concern is not necessarily long-
haul carriers whose authority will be checked every 90 days, but rather carriers
authorized to operate only in the commercial zones1 that continue beyond the
zones and do so illegally.



1
    Commercial zones at the U.S.-Mexico border generally extend from 3 to 20 miles north of U.S. border cities.
                                                                                                                       3


Since our June 2002 report, FMCSA has:

       • Completed hiring and training 271 of the 274 enforcement personnel2
         assigned along the U.S.-Mexico border. Enforcement personnel are
         (1) performing driver and vehicle safety inspections of commercial
         vehicles operating in the commercial zones and (2) have been performing
         safety audits and compliance reviews of Mexican carriers operating in the
         commercial zones.

        • Completed adequate safety inspection facilities to enforce the Act’s
          requirements at 24 of the 25 commercial border crossings. The remaining
          crossing, Andrade, California—is a low volume commercial crossing—
          where on average 7 trucks per day currently enter the United States to
          operate in the commercial zone. When the border is opened to long-haul
          traffic, California plans to provide State inspectors for the Andrade
          crossing during its hours of operation.

       • Provided inspectors at the border crossings, and inspectors in mobile
         enforcement units operating adjacent to the border, access to Mexican and
         U.S. databases to verify commercial driver’s licenses, vehicle registrations,
         insurance, and authority to operate in the United States.

       • Completed development of the safety monitoring system for Mexican
         long-haul carriers.

Issues Impacting Border Opening. Although FMCSA has substantially
complied with the Act’s safety requirements, other issues have impacted opening
the border to long-haul traffic. Most importantly, a potentially significant delay
came on January 16, 2003, when a panel of the U.S. Court of Appeals for the
Ninth Circuit issued its decision in Public Citizen versus the U.S. Department of
Transportation.3 The Court of Appeals decision set aside, pending completion of
an Environmental Impact Statement (EIS) and a Clean Air Act analysis, three
FMCSA regulations4 that are preconditions in the Act to FMCSA processing
Mexican applications seeking long-haul authority.



2
    The Act referred to all of the positions as “inspectors,” but FMCSA categorized the positions as inspectors, auditors,
    and investigators responsible for providing a full range of safety enforcement functions. These enforcement actions
    include performing driver and vehicle safety inspections, safety audits, and compliance reviews and investigations.
3
    Public Citizen v. DOT, 316 F.3d 1002 (9th Cir. 2003).
4
    On March 19, 2002, FMCSA issued the following three regulations: (1) Application by Certain Mexico-Domiciled
    Motor Carriers to Operate Beyond United States Municipalities and Commercial Zones on the United States-Mexico
    Border, 67 Federal Register 12,702; (2) Safety Monitoring System and Compliance Initiative for Mexico-Domiciled
    Motor Carriers Operating in the United States, 67 Federal Register 12,758; and (3) Certification of Safety Auditors,
    Safety Investigators, and Safety Inspectors, 67 Federal Register 12,776.
                                                                                                                  4


The Court of Appeals ruling effectively prevents FMCSA personnel from
conducting safety audits and compliance reviews until completion of the EIS and
the Clean Air Act analysis. Department officials stated that the delay might
extend up to 24 months, if an EIS is performed, or longer, if environmental
mitigation measures are required. The United States filed a motion for rehearing
of the Ninth Circuit’s decision, which the court denied on April 10, 2003. The
Department is considering a range of next steps and options, including whether to
recommend an appeal to the Supreme Court and/or prepare an EIS.

Prior to the Ninth Circuit’s ruling, diplomatic negotiations between Mexico and
the United States had been underway to conclude a Memorandum of
Understanding or establish other arrangements under which safety audits and
compliance reviews would be performed by FMCSA personnel in Mexico. U.S.
law requires that FMCSA perform 50 percent of all such audits and reviews in
Mexico. As of March 28, 2003, FMCSA has received 232 applications from
Mexican motor carriers seeking long-haul authority. According to FMCSA,
2125 of the carriers indicated that they intended to operate a combined total of
1,431 long-haul vehicles.

New Entrant Program. Until the border is opened to long-haul traffic, safety
auditors and investigators assigned to the southern border could be used to
implement FMCSA’s new entrant program for U.S. and Canadian motor carriers.
The new entrant program establishes minimum requirements for new motor
carriers to ensure that they are knowledgeable about applicable Federal motor
carrier safety standards. In addition to performing safety audits of Mexican
carriers operating in the commercial zones, this interim assignment would increase
the efficiency of the border staff and the productivity of these border resources.
However, this interim assignment should not reduce the number below
144 Federal inspectors available to inspect commercial vehicles and drivers
operating in the commercial zones.

Enforcing Operating Authority. Our June 2002 report brought to the
Department’s attention the fact that most States did not enforce operating authority
rules. As a result, FMCSA issued an interim final rule in August 2002 requiring
State inspectors to place out of service commercial vehicles operating without
authority or beyond the scope of their authority. This is important because State
enforcement personnel lacked the authority to put vehicles out of service if carriers
did not have authority to operate within the commercial zones, or had commercial
zone authority but continued beyond those zones.



5
    The other 20 applications were incomplete and did not provide information on the number of vehicles the carriers
    plan to operate long-haul in the United States.
                                                                                 5


In 1999, we reported that at least 52 Mexican motor carriers operated improperly
in 20 States beyond the 4 border States and in 2002 we reported that roadside
inspection data throughout the United States showed this had continued.
FMCSA's out-of-service requirement will work if the States expeditiously
implement the rule. We surveyed Federal and State officials within the 50 States
and the District of Columbia, and as of March 2003, they reported that 31 States
had adopted the rule. Examples of States not adopting the rule are the border State
of New Mexico and the States of Nevada and New York. In 1999, we reported
that Mexican motor carriers operated improperly in Nevada and New York.


RESULTS

Hiring and Training Inspectors
Federal Inspectors. The Act provided funds to add 214 new enforcement
personnel to FMCSA’s authorized 60 inspectors on the southern border. FMCSA
filled 271 of the 274 funded positions with safety inspectors, auditors and
investigators. All of the 271 have been trained and the Table below identifies the
number of people hired and trained for each of FMCSA’s designated enforcement
categories.

        Table: Hiring and Training of Federal Enforcement Personnel

                                                         Hired and
                                       Hired              Trained
            Position       Goal    (As of 2/13/03)    (As of 4/28/2003)
         Inspector          144          139                 139
         Auditor            67           65                  65
         Investigator       53           56                   56
         Supervisor          5            5                   5
         Support Staff       5            6                   6
         Total              274          271                 271


We determined that the safety investigators hired to date for the Southern Border
have not been experienced investigators transferred from other parts of the
country. Thus, there was no impact on the number of compliance reviews that
could be performed elsewhere in the United States. In addition to performing
compliance reviews, safety investigators have been trained to conduct safety
audits and perform safety inspections of vehicles and drivers. Similarly, auditors
have been trained to perform safety audits and vehicle and driver inspections.
                                                                                                                   6


Until the border is opened to long-haul traffic, safety auditors and investigators
assigned to the southern border could be used to implement FMCSA’s new entrant
program for U.S. and Canadian motor carriers. This entrant program establishes
minimum requirements for new motor carriers to ensure they are knowledgeable
about applicable Federal motor carrier safety standards. In addition to performing
safety audits of Mexican carriers operating in the commercial zones, this interim
assignment would increase the efficiency of the border staff and the productivity
of these border resources. However, this interim assignment should not reduce the
number below 144 Federal inspectors available to inspect commercial vehicles and
drivers operating in the commercial zones.

State Safety Inspectors. The Act provided $18 million for the four border States
to hire State inspectors for the border. As of February 25, 2003, the States had
hired 111 border safety inspectors. Texas had hired 95 inspectors, New Mexico
3 inspectors, Arizona 13 inspectors, and California plans to hire 14 inspectors. Of
the 111 State inspectors hired, 66 have been trained. FMCSA and the border
States have agreements to provide inspection coverage at the commercial
crossings and ensure that the Act’s safety requirements are met.


Completing Inspection Facilities
During our visits to commercial crossings from January 22 through February 5,
2003, we found that dedicated inspection facilities were sufficient at 24 of the
25 commercial crossings to permit inspection of commercial vehicles and drivers
operating long-haul and within the commercial zones. Dedicated inspection
facilities include office space and space to inspect vehicles and place vehicles out
of service. The border crossing without an inspection facility—Andrade,
California—is a low volume crossing through which about 1,800 commercial
vehicles enter the United States annually. Inspection space is available at the
roadside, and out-of-service space is available at a State inspection facility about
3 miles from the crossing.

FMCSA officials are attempting to obtain an agreement with the Bureau of
Customs and Border Protection (formerly U.S. Customs Service) for Andrade,
similar to agreements reached in Texas.6 The Andrade agreement would have the
Bureau of Customs and Border Protection inspectors detain any commercial
vehicle with a U.S. DOT number signifying authority to operate beyond the
commercial zones until a State safety inspector can be contacted and the truck and
driver inspected.


6
    The agreements require Bureau of Customs and Border Protection inspectors to detain any commercial vehicle with a
    U.S. DOT number signifying authority to operate beyond the commercial zones until a Federal safety inspector can
    be contacted and the truck and driver inspected.
                                                                                 7


While we categorized 24 inspection facilities as sufficient, there were related
inspection facility issues that FMCSA should address:

   • At two border crossings—Douglas and San Luis in Arizona—a portion of
     the dedicated out-of-service space was not being used because the General
     Services Administration (GSA) had not completed improvements.
     According to GSA officials, improvements have been completed and are
     fully operational as of April 28, 2003.

   • At five border crossings—Columbus, New Mexico and Eagle Pass, El Paso
     Bridge of the Americas, Laredo World Trade Bridge, and Roma in Texas—
     the Bureau of Customs and Border Protection moved or planned to move
     FMCSA’s dedicated inspection and out-of-service spaces. For example at
     the El Paso Bridge of Americas, without coordinating with FMCSA, the
     Bureau of Customs and Border Protection inspectors notified the local
     supervisory inspector that within 4 days the dedicated inspection and out-
     of-service spaces would be moved to a less desirable location on the
     compound.

Currently, FMCSA has occupancy agreements or leases with GSA at 18 border
crossings. FMCSA needs to monitor all dedicated inspection facilities to ensure
adequate inspection facilities are available and used in accordance with the
agreements with GSA. In addition, FMCSA should work with GSA to ensure that
its dedicated inspection facilities maintain the number of inspection and out-of-
service spaces per its executed agreements and leases with GSA.

In June 2002, we reported that it was important for the Department to have a
process for reevaluating overall resource requirements and inspection facilities at
the U.S.-Mexico border as long-haul traffic materializes. As of March 28, 2003,
FMCSA had received 232 applications seeking long-haul authority. We analyzed
the application data and determined that five applicants were passenger bus
companies. The application data showed that three of these companies expect to
cross the U.S.-Mexico border at the Brownsville, Laredo, and Pharr border
crossings. Currently, safety inspectors are not routinely inspecting commercial
buses at these crossings, with the exception of Laredo. When FMCSA reevaluates
its border resources, providing inspection resources to inspect buses and drivers
should be considered.

Weigh in Motion Scales (WIMS). Our recent visits to commercial crossings
confirmed that WIMS had been installed at the 10 highest volume crossings, as
required by the Act. WIMS at Calexico and Otay Mesa, California, were
operational but WIMS were not working the days we were at the remaining
8 crossings (Eagle Pass, El Paso Bridge of the Americas, El Paso Ysleta, Laredo
Columbia, Laredo World Trade Bridge, Pharr and Veterans Bridge in Texas, and
                                                                                8


Nogales in Arizona). According to officials at the Texas Department of
Transportation, they had been experiencing software problems with the WIMS,
and as of February 20, 2003, all seven were repaired and operational. Also,
according to FMCSA inspectors at Nogales, the WIMS was repaired and
operational as of April 9, 2003.

State Inspection Facilities. Congress provided $66 million for the four border
States to construct and develop permanent border inspection facilities. The status
of those facilities follows.

   • Arizona (received $2.1 million): Construction of a permanent inspection
     facility at Nogales is ongoing and scheduled for completion by October
     2003. Construction of a permanent inspection facility in Douglas is in the
     planning phase.

   • California (received $8.9 million): Construction of an inspection facility in
     Tecate is in the design phase and targeted for completion by 2006.

   • New Mexico (received $2.2 million): Construction of a permanent
     inspection facility at Santa Teresa is targeted for completion in 2005.

   • Texas (received $52.8 million): Temporary facilities are completed at
     Eagle Pass, El Paso Bridge of the Americas, Laredo Columbia, Los Indios,
     Pharr and Veteran’s Bridge. A temporary facility at El Paso Ysleta is
     scheduled for completion by April 2003. Completion of permanent
     facilities at these seven border crossings is targeted for 2005.

      Plans to construct a facility at Laredo World Trade Bridge are on hold. In
      September 2002, the City of Laredo filed a lawsuit against the State of
      Texas Department of Transportation and the U.S. Department of
      Transportation to halt construction of temporary inspection stations and
      prevent the construction of permanent facilities. On March 8, 2003, the
      United States District Court, Southern District of Texas, Laredo Division,
      denied the city of Laredo’s motion for a preliminary injunction. The
      Department filed a brief for the Court’s consideration on whether to
      separate the State law claims and Federal claims made by the city of
      Laredo.


Ensuring Compliance with U.S. Safety Rules
The intent of the Act’s safety requirements is to ensure that Mexican carriers and
drivers comply with U.S. safety rules. In June 2002, we reported that FMCSA had
issued a policy to ensure Mexican carriers comply with U.S. hours-of-service
                                                                                      9


rules, and had implemented an information system to monitor Mexican
commercial drivers operating in the United States. Further, we found that the
Mexican commercial driver’s license (CDL) and vehicle registration databases
were sufficiently accurate.

We also reported that FMCSA planned to (1) provide access to Mexican and U.S.
databases to all Federal and State inspectors at the border crossings and mobile
enforcement units operating adjacent to the border, and (2) have an operational
safety monitoring system for Mexican carriers.

Access to Databases. During our recent visits to the commercial crossings, we
found that inspectors at 22 crossings could electronically access Mexican and U.S.
databases to verify CDLs, license plates, authority to operate in the United States,
and U.S. insurance coverage. At the Andrade, California, and Lukeville and
Sasabe, Arizona, crossings, State inspectors can access these databases by
contacting dispatch or contacting inspection facilities with electronic access.
Arizona plans to provide inspectors at the Lukeville and Sasabe crossings internet
capability by the end of 2003.

We tested 22 mobile enforcement units operating adjacent to the border and
determined that all could access Mexican and U.S. databases by contacting
dispatch, calling inspectors stationed at the border crossings, or calling FMCSA’s
1-800 telephone number. However, 16 of the 22 mobile enforcement units were
not aware of FMCSA’s 1-800 telephone number to verify operating authority and
insurance until we advised them of the process.
Safety Monitoring System for Carriers. FMCSA’s automated safety monitoring
system for Mexican carriers is operational. The automated system is designed to:
(1) identify carriers requiring a compliance review or a letter of corrective action,
(2) generate corrective action letters to send to the carriers, and (3) create a carrier
history of violations and dates of corrective actions.

Operating Authority. On August 28, 2002, FMCSA issued an interim final rule
requiring inspectors to place out of service any commercial vehicle operating
without authority or beyond the scope of its authority. The rule, which became
effective on September 27, 2002, also requires that States enforce the new
requirements as a condition of receiving Motor Carrier Safety Assistance Program
funds. Any State that fails to comply within 3 years of the effective date of the
rule may incur penalties for noncompliance. We surveyed FMCSA and State
officials in the 50 States and the District of Columbia; and as of March 2003, they
reported that 31 States have adopted the new operating authority rule.

Because of the delay in opening the border, FMCSA has time to ensure that its
long-haul procedures are known and practiced. We found that Federal inspectors
                                                                                 10


at Nogales used good practices. They used processes developed for Mexican
long-haul carriers for Mexican carriers operating in the commercial zones. For
example, inspectors were electronically verifying the CDLs of drivers regardless
of whether or not the vehicles were inspected.


RECOMMENDATIONS
We recommend that the FMCSA Administrator:
   1. Use border safety auditors and investigators to conduct safety audits for
      implementation of the new entrant program, as appropriate.

   2. Monitor dedicated inspection, out of service, and office spaces at
      commercial crossings to ensure sufficient inspection facilities are available;
      and work with GSA to ensure executed agreements and leases are
      implemented.

   3. Include in the reevaluation of resource requirements (level of inspection
      staff and facility requirements at each border crossing based on actual
      commercial zone and projected long-haul traffic) at the U.S.-Mexico
      border, an assessment of the crossings where passenger buses are expected
      to enter the United States.

   4. Include procedures and practices in refresher training modules to ensure
      that Federal and State inspectors are knowledgeable of FMCSA’s policies
      and procedures for Mexican long-haul trucks and buses.

MANAGEMENT RESPONSE AND ACTIONS REQUIRED
On March 20, 2003, we received oral comments on a draft of this report from
FMCSA officials, they concurred with our conclusions and recommendations. In
accordance with DOT Order 8000.1C, we would appreciate receiving FMCSA’s
written response within 30 days, providing specific actions taken or planned for
each recommendation and the target dates for completion.

We appreciate the courtesies and cooperation of FMCSA and State representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-1992 or Theodore P. Alves, Assistant Inspector General for
Infrastructure Programs, at (202) 366-0687.

                                         #

cc: The Secretary
    Deputy Secretary
                                                                                11




EXHIBIT A. OBJECTIVES, SCOPE,
METHODOLOGY, AND PRIOR AUDIT COVERAGE

OBJECTIVES
Our audit objectives are the Act’s Section 350 (c) (1) (A) through (H) provisions
as follows.

1. All new inspector positions funded under the Act have been filled and the
   inspectors have been fully trained.
2. Each inspector conducting on-site compliance reviews in Mexico consistent
   with the safety fitness evaluation procedures set forth in Part 385 of Title 49,
   Code of Federal Regulations, is fully trained as a safety specialist.
3. The requirement of conducting a full safety compliance review before the
   carrier is granted permanent operating authority to operate beyond the
   commercial zones has not been met by transferring experienced inspectors
   from other parts of the United States to the U.S.-Mexico border, undermining
   the level of inspection coverage and safety elsewhere in the United States.
4. Adequate capacity exists at each U.S.-Mexico border crossing used by
   Mexican motor carrier commercial vehicles (long-haul) to conduct a sufficient
   number of vehicle safety inspections and to accommodate vehicles placed out
   of service.
5. FMCSA has implemented a policy to ensure compliance with U.S. hours-of-
   service rules by Mexican long-haul carriers.
6. Mexico’s information infrastructure is sufficiently accurate, accessible, and
   integrated with that of U.S. law enforcement authorities to allow authorities to
   verify the status and validity of commercial driver’s licenses (CDL), vehicle
   registrations, operating authority, and insurance of Mexican long-haul carriers
   while operating in the United States, and that adequate telecommunications
   links exist at all U.S.-Mexico border crossings used by Mexican long-haul
   carriers and in mobile enforcement units operating adjacent to the border to
   ensure easy and quick verification of this information.
7. An accessible database exists containing sufficiently comprehensive data to
   allow for the safety monitoring of all Mexican motor carriers and drivers that
   apply for long-haul authority.
8. Measures are in place to enable U.S. law enforcement authorities to ensure the
   effective enforcement and monitoring of license revocation and licensing
   procedures of Mexican motor carriers.



Exhibit A. Objectives, Scope, Methodology and Prior Audit Coverage
                                                                                      12


In addition, we planned to determine how effectively resources were being used
and whether safety procedures were being implemented.
                                                                    Southern
                                                                 Border Crossings
SCOPE AND METHODOLOGY
                                                              California
We verified staffing, facility improvements, electronic    Otay Mesa
access, and other actions taken by FMCSA and the           Tecate
                                                           Calexico
States to comply with requirements established by the
                                                           Andrade
2002 DOT Appropriations Act at 25 commercial border
crossings along the U.S.-Mexico border. We also               Arizona
conducted work at two additional crossings in Texas,       San Luis
Fabens and Roma Falcon, where commercial volume is         Lukeville
not sufficient to merit full-time inspection coverage or   Sasabe
                                                           Nogales
dedicated inspection facilities. At these two crossings,   Naco
we verified whether inspectors from the Bureau of          Douglas
Customs Service and Border Protection (formerly U.S.
Customs Service) were aware of the appropriate                New Mexico
procedures to detain Mexican long-haul commercial          Columbus
                                                           Santa Teresa
vehicles and notify Federal safety inspectors.
                                                               Texas
Because the border was not open to long-haul traffic,      El Paso-Bridge of the Americas
we were unable to evaluate the efficient use of            El Paso-Yselta
resources and the implementation of safety procedures      Fabens
including the hours of service policy.                     Presidio
                                                           Del Rio
                                                           Eagle Pass
To determine whether inspector, auditor, and               Laredo-World Trade Bridge
investigator positions have been filled and whether        Laredo-Columbia
those personnel have been trained, we analyzed (1)         Roma-Falcon
biweekly lists of personnel selected to fill new           Roma
positions, (2) the scheduled service entry dates of those  Rio Grande City
                                                           Pharr
personnel, and (3) the training academies those
                                                           Progresso
personnel were assigned to, where applicable. We also      Brownsville-Los Indios
monitored training progress by comparing test answer       Brownsville-Veterans
sheets with class rosters. To determine whether
FMCSA staff were transferred to the southern commercial border crossings from
other parts of the United States, we interviewed FMCSA staff and statistically
sampled payroll and personnel records.

We interviewed General Services Administration, FMCSA, and State officials and
visited each commercial border crossing to verify that dedicated inspection, out-
of-service, and office spaces were completed and in use.



Exhibit A. Objectives, Scope, Methodology and Prior Audit Coverage
                                                                               13


We did not re-verify the accuracy of the Mexican commercial driver’s license
(CDL) and vehicle registration databases, which we previously verified in
April 2002. To determine whether inspectors could access U.S. and Mexican
databases, we conducted tests at 25 commercial border crossings and with 22 U.S.
law enforcement authorities (mobile units) operating along the U.S.-Mexico
border. We evaluated demonstration tests for the carrier safety monitoring system.
In June 2002, we reported that the safety monitoring system for commercial
drivers was operational and we did not re-verify that system. Finally, we reviewed
and analyzed FMCSA’s August 2002 operating authority rule, as well as related
policies, and surveyed Federal and State authorities regarding implementation of
the rule.

The audit was conducted from December 26, 2002 through April 28, 2003 in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States and included tests of internal controls as we
considered necessary. We did not assess the general and application controls for
the Mexican and U.S. information systems.

PRIOR AUDIT COVERAGE
Implementation of Commercial Vehicle Safety Requirements At the U.S.- Mexico
Border, OIG Report Number MH-2002-094, June 25, 2002. We found that
FMCSA made substantial progress toward meeting the FY 2002 Transportation
and Related Agencies Appropriations Act’s requirements to hire and train
inspectors, establish inspection facilities, and develop safety processes and
procedures for Mexican long-haul carriers. FMCSA proposed to complete within
60 days, those actions that were in process and planned to meet the Act’s
requirements, except the hiring and training of safety investigators and training
supervisors.

North American Free Trade Agreement: Coordinate Operational Plan Needed to
Ensure Mexican Trucks’ Compliance with U.S. Standards, General Accounting
Office Report Number GAO-02-238, December 21, 2001. GAO found that the
Department of Transportation did not have a fully developed or approved
operational plan in conjunction with border States to ensure that Mexican-
domiciled carriers comply with U.S. safety standards.

Motor Carrier Safety at the U.S.-Mexico Border, OIG Report Number MH-2001-
096, September 21, 2001. We recommended that FMCSA strengthen safety
controls at the border in the following areas: staffing, safety reviews and
inspections, enforcement, facilities, rulemakings, and outreach.




Exhibit A. Objectives, Scope, Methodology and Prior Audit Coverage
                                                                                14




Status of Implementing the North American Free Trade Agreement’s Cross-
Border Trucking Provisions, OIG Report Number MH-2001-059, May 8, 2001.
We found that (1) the percentage of Mexican trucks removed from service because
of serious safety violations declined from 44 percent in FY 1997 to 36 percent in
FY 2000; (2) FMCSA increased the authorized number of inspectors at the
southern border from 13 in FY 1998 to 60 in FY 2001, and requested 80 additional
enforcement personnel in its FY 2002 budget request; and (3) there had been few
needed improvements to inspection facilities used by Federal and State
commercial vehicle inspectors at border crossings.

Mexico-Domiciled Motor Carriers, OIG Report Number TR-2000-013,
November 4, 1999. We found that Mexico-domiciled motor carriers were
operating improperly in the United States and violating U.S. statutes either by not
obtaining operating authority or by operating beyond the scope of their authority.

Motor Carrier Safety Program for Commercial Trucks at U.S. Borders, OIG
Report Number TR-1999-034, December 28, 1998. We found that the actions in
preparation for opening the U.S.-Mexico border to Mexican long-haul trucks did
not provide reasonable assurance in the near term that trucks entering the United
States will comply with U.S. safety regulations. With the exception of California,
neither the Federal Highway Administration nor the States’ plans provided for an
adequate presence of inspectors at border crossings for trucks currently operating
in the commercial zones.

FMCSA has taken action to satisfy the majority of the recommendations cited in
the above reports.
